                          U.S. SMALL BUSINESS ADMINISTRATION 

                             OFFICE OF INSPECTOR GENERAL 

                                  Washington, D.C. 20416 




                                                         AUDIT REPORT
                                                 Issue Date: September 10, 1999
                                                 Number: 9-20


TO: 	         Robert J. Moffitt, Associate Administrator, Office of Surety Guarantees


FROM: 	
              [S<.
              Jo~
                     le          J"
                      DyEr0cting Assistant Inspector General for Auditing

SUBJECT: 	 Audit of Bankers Insurance Company SBA Guaranteed Bonds with
           Georgia Coastal Construction Group


                                    BACKGROUND

        At the request of the Associate Administrator," Office of Surety Guarantees, we
completed an auditof a SBA guaranteed payment and performance bond (SBG
numberliSl'- 'Z..                ,J Bankers Insurance Company's (Bankers) independent
agent, The Surety Group (the agent), issued the bonds to Georgia Coastal Construction
Group (Georgia Coastal), a subcontractor under Beers Construction Company (Beers).
Beers allowed Georgia Coastal to start work before bonding. Since work had started
prior to bond execution, SBA required certification from Beers on SBA Form 991 that
the work to date was satisfactory. Approximately four months after the SSA guaranteed
bonds were issued, Georgia Coastal's subcontract was terminated because of
performance problems. An investigation by Bankers found that the general contractor
had improperly certified that Georgia Coastal was performing satisfactorily and an
arbitrator discharged the surety's liability under the bonds based partly on the improper
certification. Relief for the legal and consultation expenses incurred by the surety
related to the arbitration, however, was not granted. Bankers then submitted a
reimbursement claim to SSA for a portion of the expenses based on the guaranteed
percentage of the bonds.


                          AUDIT OBJECTIVE AND SCOPE

      The audit objective was to determine if Bankers complied with SSA's policies
and procedures in originating the bonds and if SBA, therefore, was liable for the legal
and consultation expenses incurred by the surety. The audit scope was limited to a
!



    review of Bankers' origination procedures on the bonds because the Associate
    Administrator believed the expenses would otherwise be allowable. We reviewed
    Bankers' files and interviewed SBA and Bankers' representatives. Fieldwork was
    performed from April 1999 to July 1999. The audit was conducted in accordance with
    Government Auditing Standards.


                                      RESULTS OF AUDIT

           Bankers complied with SBA's policies and procedures in applying for the bond
    guarantees, except for two omissions. Consequently, Banker's underwriting of the
    bonds would not have precluded SBA's approval of the bond guarantees or liability for
    its share of the legal and consultation expenses incurred by the surety.

    • 	 The agent's files showed no record of a credit evaluation when the bond was
        underwritten. Title 13 CFR 115.32(a) requires an evaluation of the principal's credit
        during underwriting to assure a reasonable expectation that the principal will perform
        the contract. Bankers stated they expect the agent to evaluate credit using prudent
        underwriting standards. Bankers also stated that they pull credit reports on bonds
        within the agent's underwriting authority after bond approval. The credit report
        pulled by Bankers showed the individual indemnitors had some charge-off and
        collected accounts. A Dun & Bradstreet report on the business showed slow
        payments. Bankers had informed the agent that Georgia Coastal must exhibit good
        credit for at least one year prior to consideration for a non-SBA bond. Although a
        credit evaluation should have been performed during underwriting, Bankers stated
        that the bonds would have been appr.oved if the credit reports were available.

    • 	 The agent's files had no record of contact with job references to determine the level
        of performance on four completed jobs listed by Georgia Coastal on its bond
        application. The auditors found that Beers had terminated the contractor on a .
        portion of one of the completed contracts. Title 13 CFR 115.32(a) requires a surety
        to evaluate the capacity of a contractor in accordance with generally accepted
        standards of the surety business. Introductorv Principals of Suretyship:
        Underwriting Construction Accounts, published by the American Surety Association,
        states that a surety has an obligation to determine the prior performance of the
        principal. Bankers stated that it is standard practice to obtain reference checks on
        completed projects. The agent stated that Beers was contacted for the required
        SBA Form 991 certification on the current contract and as they were one of the
        obligees on the completed contracts listed by Georgia Coastal, they would have
        disclosed any performance problems. The certification completed by the obligee did
        not disclose any performance problems on the current contract or completed
        contract. The auditors, however, determined that the project manager that the
        agent contacted was not the same project manager for the completed contract.




                                               2

        ..                                       •


Recommendations:

       We recommend that the Associate Administrator, Office of Surety Guarantees,

1A.    Notify Bankers to revise its underwriting procedures to have its agents evaluate
       cred·it within the agent's authority in the same manner as S8A bonds that require
       Bankers' approval prior to submission to SBA.

1B.    Notify Bankers to contact obligees on prior completed contracts to determine the
       contractor's prior performance.


SSA Management's Response and OIG Evaluation

       The Associate Administrator, Office of Surety Guarantees, agreed to implement
our recommendations. The comments provided by the Associate Administrator are
responsive to our recommendations.

                                        **** 

      The findings included in this report are the conclusions of the Office of Inspector
General's Auditing Division. The findings and reco'mmendations are subject to
review, management decision, and corrective action by your office in accordance
with existi"ng Agency procedures for audit follow-up and resolution.

      Please provide us your proposed management decisions for the
recommendations within 80 days on the SBA Forms 1824, Recommendation Action
Sheet. If you disagree with a recommendation, please provide your reasons in writing.

       This report may contain proprietary information subject to the provisions of 18
USC 1905. Do not release to the public or another agency without permission of the
Office of Inspector General.

       Should you or your staff have any questions, please contact Victor R. Ruiz,
Director, Business Development Programs Group at (202) 205- Lt.x. 2- J

Attachment




                                           3

                                                                                                          Attachment 1


                                            REPORT DISTRIBUTION 



Recipient                                                                                       No. of Copies 


Associate Deputy Administrator for Capital Access ..................................... 1 


Associate Administrator for Surety Guarantees ....................................•...... 1 


General Counsel. ......................................................................................... 2 


Office of the Chief Financial Officer 

Attention: Jeff Brown .................................................................................. 1 

